<html>
<title> - FLOOD CONTROL INFRASTRUCTURE: SAFETY QUESTIONS RAISED BY CURRENT EVENT</title>
<body><pre>[Senate Hearing 115-25]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 115-25

                  FLOOD CONTROL INFRASTRUCTURE: SAFETY
                   QUESTIONS RAISED BY CURRENT EVENT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 1, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









         Available via the World Wide Web: http://www.fdsys.gov
         
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-784 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                   
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 1, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Todd, Lieutenant General, T. Semonite, Commanding General and 
  Chief of Engineers, U.S. Army Corps of Engineers...............    15
    Prepared statement...........................................    18
Responses to additional questions from:
    Senator Barrasso.............................................    22
    Senator Carper...............................................    24
    Senator Wicker...............................................    29
    Senator Shelby...............................................    31
Attatchments to Lt. General Semonite's responses to Questions for 
  the
Record are retained in the files of the Committee
Corbett, Hon. Ron, Mayor, Cedar Rapids, Iowa.....................    33
    Prepared statement...........................................    35
Wolf, Terry, Hon., Chairman, Washakie County Commissioners, 
  Wyoming........................................................    38
    Prepared statement...........................................    41
Laird, Secretary John, Deputy Secretary For External Affairs, 
  California Natural Resources Agency............................    47
    Prepared statement...........................................    49
    Response to an additional question from Senator Barrasso.....    55
    Responses to additional questions from Senator Carper........    56
Larry A. Larson, P.E., CFM, Director Emeritus/Senior Policy 
  Advisor, Association of State Floodplain Managers Inc., 
  Wisconsin......................................................    59
    Prepared statement...........................................    61
    Response to an additional question from Senator Carper.......    78
    Response to an additional question from Senator Wicker.......    78

                          ADDITIONAL MATERIAL

Statements:
    Michael D. Klingner, Chairman of the Upper Mississippii, 
      Illinois and Missouri Rivers Association (UMIMRA)..........   115
    Association of State Dam Safety Officials....................   118

 
 FLOOD CONTROL INFRASTRUCTURE: SAFETY QUESTIONS RAISED BY CURRENT EVENT

                              ----------                              


                        WEDNESDAY, MARCH 1, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:34 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(chairman of the committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Wicker, 
Fischer, Moran, Rounds, Ernst, Cardin, Whitehouse, Gillibrand, 
Booker, Markey, and Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    President Trump has made improving our Nation's 
infrastructure a top priority, and this Committee is continuing 
its effort to highlight our Nation's infrastructure needs.
    As I have stated, infrastructure is critical to our 
Nation's prosperity. In personal meetings, I have met with 
members of this Committee, both sides of the aisle, and I will 
tell you that infrastructure is always listed as a top 
priority. It is a priority because it is a driver of our 
Nation's economy and it impacts every community.
    This Committee has a long history of working together in a 
bipartisan way on infrastructure issues. I want to continue 
that tradition.
    The Senate Environment and Public Works Committee has 
sweeping jurisdiction over our Nation's infrastructure. Our 
last hearing focused on highways and roads, and the needs of 
rural water systems, all of which are within this Committee's 
purview. Recent natural weather events in the last month in 
California and in other western States are highlighting the 
need to focus our attention on our levees and our dams and 
other structures that prevent catastrophic flooding in both 
rural and urban communities.
    Earlier this month, more than 180,000 people were evacuated 
in California because storms caused serious damage to the 
Oroville Dam, the tallest dam in the United States. The 
potential threat of dam failure is a serious concern, a concern 
to State officials and to people living downstream of Oroville. 
Any future severe weather event could make the situation even 
more critical, and it is raising questions about the readiness 
of our flood prevention infrastructure.
    Dams and levees across the Country need to be modernized 
and maintained if we are to prevent future disasters. So I 
believe any infrastructure bill that this Committee develops 
should consider the need to maintain and modernize these 
structures.
    Winter weather events aren't just affecting California, but 
are occurring across the West, hitting towns big and small. 
These events include ice jam flooding in Northern Wyoming along 
the Big Horn River, in the towns of Worland, Manderson, 
Greybull, as well as towns located to the south like Riverton, 
Lander, Hudson, and areas of the Wind River Reservation.
    This past month the ice jam floods have damaged over 100 
homes in Worland, a city of roughly 5,000 people, so these 
floods have serious and lasting impacts.
    In the past, blocks of ice the size of cars sit for weeks 
on playgrounds and front lawns. The river ice damages 
everything from public structures like water treatment plants 
and public parks to private homes and small businesses. These 
ice jams are regular occurrences harming small towns not just 
in Wyoming, but in other parts and States from the Dakotas to 
UpState New York.
    For these small towns, the cost of cleanup and repair is an 
enormous burden from which it takes months to fully recover. In 
certain instances, flooding could be mitigated by the Army 
Corps providing more flexibility in allowing towns to take the 
steps they need to protect their communities.
    Our Committee has jurisdiction over the environmental laws 
that impact the modernization of infrastructure. Oftentimes, in 
rural States, Federal one-size-fits-all rules can have absurd 
results on the ground. If we are moving a tree or a pile of 
dirt which might only take days to accomplish can make a 
difference in preventing a catastrophic flood, a town shouldn't 
have to go through a lengthy bureaucratic process to remove 
those features while the town floods yearly.
    Bureaucratic red tape should be cut where people's lives 
and property are on the line, which is always the case when we 
are talking about flooding.
    Dams and levees are the most common infrastructure to 
address flooding. However, new technology can also help 
mitigate the threat of flooding, including ice jams. I include 
language in Title I of the Water Resources Development Act this 
Committee enacted last Congress creating an Army Corps Pilot 
Program to develop innovative and cost-saving technology to 
address the threat of ice jams. The program needs to be 
implemented.
    I would also like to note that in the past two WRDA bills 
this Committee provided additional authority to both the Corps 
and to FEMA to help States, local governments, and dam owners 
address deficient levees and dams. It is time to implement 
these authorities.
    I also would like to hear what else this Committee and the 
Army Corps can do to improve existing infrastructure, building 
new infrastructure, reduce red tape, and develop lifesaving 
technology and materials to prevent flooding.
    Now, with that, I now want to turn to Ranking Member Carper 
for his statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. Thanks very much for 
bringing us together.
    We welcome all of you. We are glad that you are here. You 
could be at a lot of different places, but it is important that 
you be here. We look forward to your testimonies and to the 
opportunity to ask some questions, just to have a good 
conversation.
    The Chairman and I talk a lot about Mike Enzi's 80/20 rule. 
Mike Enzi is a Senator from Wyoming and he talks about the 80/
20 rule as something that he and Ted Kennedy used to lead 
something called HELP, the Health, Education, and Pension 
Committee. And I would say to him, how does one of the most 
liberal Democrats and one of the most conservative Republicans 
get so much done, provide leadership to this Committee? And 
Mike said, we believe in the 80/20 rule. I said, what is that? 
And he said, Ted and I agree on 80 percent of the stuff, we 
disagree on 20 percent of the stuff, and what we focus on is 
the 80 percent where we agree.
    Senator Barrasso and I agree on a lot. We especially agree 
on the need to invest wisely in infrastructure. Fortunately, it 
is not an especially partisan issue, as we heard last night in 
the President's State of the Union Address, although it was 
preciously short on how to pay for stuff, which is always the 
challenge, how to pay for stuff. It is easy to figure out how 
to spend the money; not so easy to figure out how to pay for 
it.
    Democratic Senators continue to press for a consensus on 
the issue of infrastructure. It appears to me that we are one 
of the few Senate committees here, EPW, really talking about 
working on a bill in a bipartisan comprehensive way and intent 
on doing that, and I applaud our Chairman for his leadership 
there and for Jim Inhofe's leadership before that. I believe 
that members on both sides of the aisle feel an urgent need to 
move forward on a comprehensive infrastructure package, but in 
a thoughtful way, rather than to kick the can down the road, 
something that we are pretty good at here.
    As a recovering Governor, I judge any legislation that 
makes these kinds of investments by asking a simple question, 
and that question is this: How does this proposal, whatever the 
proposal of the day is, how does it help create a more 
nurturing environment for job creation and job preservation? 
That is what I actually ask.
    In addition to answering that question, I also believe 
something Lincoln used to say when Lincoln was asked a long 
time ago what is the role of government, and he replied, 
famously, the role of government is to do for the people what 
they cannot do for themselves. Wise words.
    Flood control investments are not ones that average 
citizens can make for themselves, as you know. Not only do the 
construction of dams and levees create jobs, but these 
investments can also support local economies, help drive 
commerce, and put our communities on a path to civility.
    One of the things that businesses need most is 
predictability and certainty, and they don't need floods and 
the kind of havoc that can create for their community and for 
their businesses. So it is important that we make investments, 
because when dams and levees fail, they can result in loss of 
life and, as we know, economic destabilization and even 
economic devastation.
    But as we work through this hearing and other 
infrastructure oversight and policy decisions, I think that we 
will struggle with maybe two central points. One is what is the 
role of Federal, State, and local government in addressing 
these infrastructure concerns, and, also, are the three levels 
of government up to the challenge. Are the three levels of 
government up to the challenge?
    Something called the McKinsey Global Institute put out a 
2013 report that you may be familiar with that said that we 
need to invest between $150 billion and $180 billion a year 
more in infrastructure at large just to make up for years of 
underinvestment that is hindering our Country on a multitude of 
levels, from limiting economic growth to threatening our 
personal safety.
    This comprehensive report, which I commend for your 
reading, looks at all components of infrastructure, but this 
message of drastic need is easily applicable to what we are 
talking about today, and that is flood control.
    The same report found that one of the best ways to invest 
and get the most out of our dollars is to maintain existing 
infrastructure. That probably doesn't come as a surprise to any 
of you. But whether it is a bridge or a dam, our Government has 
a fundamental responsibility to make sure that those structures 
are sound and continue to serve for their intended purpose, 
including protecting the lives that are impacted by the bridge 
or a dam's very existence.
    As I mentioned earlier, infrastructure investment is 
critical for our economy in part because of the direct jobs we 
create from the construction and from the restoration work, as 
well as the displaced workers that we can bring back into our 
work force. They want to work. If they can actually do this 
work, then let's turn them loose. But just as important are the 
lives and property that are protected by these projects.
    I am particularly looking forward to hearing from our 
friends from California, the Secretary of Natural Resources, 
John Laird, on his experience with the Oroville Dam and about 
California's nationally recognized flood safety program. I 
think it is critically important that we learn from each 
other's experience and that we take that shared knowledge 
forward through the legislative process.
    In closing, the critical infrastructure of our Country is 
aging and in need of significant capital investment to help our 
economy continue to grow. The 2013 infrastructure report card 
issued by the American Society of Civil Engineers gave us a D, 
as in dog, to roads, drinking water, wastewater infrastructure; 
and then waterways and levees received a D-; ports of sea, 
bridges about a C+.
    As we hear testimony, I am particularly interested in 
hearing how our witnesses think about the roles of the 
different levels of government, where there are gaps that need 
to be filled, and as it relates to protecting investing in and 
maintaining critical infrastructure such as levees and dams.
    The concept of shared responsibility has been an 
overarching theme in many of our conversations. I am sure we 
will continue that conversation today.
    I also hope to hear some thoughts on the concept of natural 
infrastructure protection as it relates to flood safety.
    Finally, while traditional forms of infrastructure like 
roads and ports are essential to our economy, I feel that we 
need more investment to protect our natural infrastructure as 
well, such as our shorelines and our wetland ecosystems, and 
thanks very much to the Army Corps for all you do in that 
regard. Without these protections, risks to manmade 
infrastructure significantly increase and in many cases become 
unmanageable.
    Finally, I am interested in how the Federal Government can 
be more efficient with our current funding streams and get the 
most out of every dollar of Federal investment, and I want to 
know how we can make sure that we are prioritizing the most 
critical investments and ensuring that we maintain the assets 
we have first, before building new assets that we can't afford.
    No one-size-fits-all approach to solve our problems. We 
have to work across the aisle. I am encouraged that under the 
leadership of this man here we will.
    Mr. Chairman, with that, I would ask unanimous consent that 
the testimony of American Rivers be submitted for the record, 
please.
    Senator Barrasso. Without objection.
    Senator Carper. Thank you so much.
    [The referenced information follows:]

    Senator Carper. Thanks very much.
    [The prepared statement of Senator Carper follows:]
    
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
   
    Senator Barrasso. We have a number of guests here.
    Senator Ernst, could I invite you to please introduce your 
guest to the Committee?
    Senator Ernst. Thank you, Mr. Chair. I want to thank you, 
as well, for holding this important hearing today, and thank 
you for working with me to extend an invitation to a great 
Iowan on the panel today. I am pleased to introduce the mayor 
of Cedar Rapids, Mr. Ron Corbett, to this Committee. Mayor 
Corbett has been working tirelessly on behalf of the citizens 
of Cedar Rapids securing State and local funding to rebuild his 
community after the 2008 flood, and what they have done is 
truly impressive.
    But critical assistance from the Corps is also needed to 
complete Cedar Rapids' flood risk management project, and this 
is something Mayor Corbett has been leading the charge on for 
years now. Cedar Rapids and communities across my State are in 
need of Corps assistance, but have run into hurdles trying to 
navigate the bureaucracy within the Corps and OMB. They just 
point fingers at each other, and it is an issue that we are 
trying to work through and resolve not just for the people of 
Cedar Rapids, for many communities across the State of Iowa and 
the Nation.
    So we continue working through this. We also know that the 
city of Des Moines also has important levee work that needs to 
be done, and Cedar Falls has been working on a 408 permit 
application that still isn't approved.
    In addition, how the current system is set up to calculate 
the economic benefits of flood control projects places Iowans 
at a disadvantage. The current metrics that the Corps and the 
Administration use prioritizes building beaches in front of 
multimillion dollar oceanfront homes over protecting the people 
of Cedar Rapids because the calculations are based on property 
value.
    Cedar Rapids is Iowa's second largest city, and its success 
is critical to the economic well-being of the entire State. 
They have endured two significant flooding events in 8 years 
that have cost billions of dollars in devastation and recovery 
aid. The Corps has some discretion to help, and have simply 
made the decision to forego the assistance, even though the 
community worked with the Corps to develop a project to address 
that flood risk and worked with Congress to get it authorized.
    So I look forward to the discussion today and, Mayor 
Corbett, thank you. I know you will be detailing for this 
Committee Cedar Rapids' very, very important story.
    I am also eager to continue my conversation with you, 
General Semonite, thank you for being here today, to see if we 
can move forward on this.
    Thank you very much, Mr. Chair.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Harris, could I invite you to introduce your guest?
    Senator Harris. Thank you, Mr. Chairman and Ranking Member 
Carper for scheduling this important hearing, as recent events 
in my home State highlight the necessity of Congress's support 
in assisting our State and local partners to maintain, repair, 
and upgrade our Nation's aging infrastructure, and especially 
when it comes to critical systems that could threaten the 
public safety of all Americans.
    It is my distinct pleasure to introduce the Secretary of 
the California Natural Resources Agency, John Laird. Secretary 
Laird has over 40 years of experience working in public 
service, ranging from a budget analyst for then-U.S. 
Representative Jerome Waldie, a local elected official as Santa 
Cruz City Councilman and Mayor, and as a State legislator where 
he chaired the California Assembly budget committee. And I had 
the pleasure of working with him throughout those years, both 
when I was district attorney of San Francisco and as attorney 
general.
    In his current role as Secretary of Natural Resources, he 
manages California's ecological and cultural resources, water 
reserves and supplies, and statewide environmental policies. 
Within his agency, he oversees 30 sub-departments, including 
the California Department of Water Resources, which is the lead 
agency working around the clock to repair Oroville Dam and to 
prevent catastrophic flooding.
    Mr. Chairman, last week Secretary Laird and I had a chance 
to tour the Oroville Dam together, and he had an extraordinary 
understanding of the technical needs of the dam and levee 
infrastructure. I also want to comment that as he and I both 
noticed, it was an extraordinary example at the dam of Federal, 
State, and local agencies coming together to meet a need that 
was really a crisis in terms of its proportion. We saw folks 
that ranged from members of the National Guard, the United 
States Navy, FEMA, and California Emergency Services, together 
with the local sheriff, Butte County Sheriff Kory Honea, who 
came together to meet the challenge and the need, and they did 
it in a seamless way.
    And it goes without saying that Secretary Laird has 
extensive knowledge of the needs of our Nation and the needs 
that we should consider when it comes to sufficiently 
maintaining our infrastructure and flood management systems. 
This, combined with his budgetary experience at all levels of 
Government, can shed light on how Congress should leverage 
funding streams to help address our aging infrastructure.
    I know that in California alone there are approximately 
1,400 dams, and nearly half of those are designated as ``high 
hazard potential dams'' by State officials. Realizing the 
devastation that could be caused by an aging dam 
infrastructure, California has invested approximately $11 
billion in flood control management in the past decade to 
protect nearly 7 million people and $580 billion worth of 
assets, which include buildings, farmland, and crops, that are 
at risk.
    The need for improvements aren't solely in California. For 
example, in States like Wyoming, we have invested more than 
$1.2 billion of their State's funding for water infrastructure 
improvements, water storage, and supply projects, recycled and 
wastewater management and treatment, and drought and emergency 
relief water programs since 1975.
    In addition, according to the Association of State Dam 
Safety Officials, it is estimated that non-federally owned dams 
throughout our Nation represent 96 percent of all dams in the 
United States and would need more than $60 billion to 
sufficiently repair, which is a third of the cost that is 
urgently needed to repair the high hazard dams identified by 
the Association. This demonstrates that the need is great 
across our Nation, and that is why I greatly appreciate the 
Chairman's willingness to continue prioritizing this 
conversation, and I look forward to working with my colleagues 
on this Committee to continue Federal support that is necessary 
and yet critical to maintain our infrastructure nationwide.
    I look forward to hearing from you, Mr. Secretary. Welcome. 
And I appreciate all the members of the Committee and other 
witnesses for being here to discuss this crucial topic. Thank 
you.
    Senator Inhofe.
    [Presiding.] Well, thank you, Senator Harris. That was a 
very nice introduction.
    Senator Harris. Thank you.
    Senator Inhofe. Let me explain to everyone where we are 
today. I am alone. We have votes going on. I have already voted 
the first time. Several others will be voting and coming back. 
Now, I would say this, though, that there is staff from each 
member who is here today, so we are going to start with opening 
statements, and we will start with you, General Semonite. And 
if Senator Barrasso is not back, we are going to skip you, I 
say to our next witness, and go to the third, because he wants 
to be here during your opening statement.
    General, you are on.

 STATEMENT OF LIEUTENANT GENERAL TODD T. SEMONITE, COMMANDING 
  GENERAL AND CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

    General Semonite. Chairman Barrasso, Senator Inhofe, 
Ranking Member Carper, and distinguished members of the 
Committee, I am Lieutenant General Todd Semonite, Commanding 
General of the Corps of Engineers and the 54th Chief of 
Engineers. Thank you for the opportunity to be here today to 
discuss the role of the United States Army Corps of Engineers 
in dam and levee safety.
    One of the Corps' primary objectives in constructing, 
operating, and maintaining dam and levee infrastructure is to 
reduce risk to public safety. Our efforts in this area are part 
of a larger array of management practices aimed to ensure our 
Nation is postured to safely enjoy a range of water resources 
benefits. For dam and levee safety, the Corps uses a risk-
informed approach to ensure that these objectives are met in a 
transparent and disciplined manner.
    Water plays a central role in the strength of our economy, 
the health of our community, and the diversity of our 
ecosystems. Unfortunately, many of our Nation has experienced 
what happens when we have too little water, too much water, or 
water that is not fit to consume or sustain natural habitat. In 
many ways the decisions that we have made as a Nation in 
developing, managing, and protecting our water resources have 
influenced how the Nation developed and where its people now 
live. The Nation's water resource infrastructure includes dams 
and levees built by the Federal Government, States, local 
authorities, and the private sector. Sustaining the benefits of 
these structures requires the appropriate investment of 
resources and the proper management of the risks that come with 
those benefits.
    Although often planned and constructed as individual 
projects, many of our Nation's dams and levees now operate as 
integrated components of a much larger water resource 
management system. The Corps owns and operates only a small 
fraction of the dams and levees in the Nation. Our portfolio 
includes 715 dams, which is less than 1 percent of over 90,000 
structures identified in a 2016 national inventory of dams. The 
Corps also operates and maintains roughly 2,500 miles of 
levees, which is less than 10 percent of the roughly 30,000 
miles now in the national levee inventory. From a functional 
perspective, the Corps generally constructed the dams and 
levees that it owns and operates to provide navigation or flood 
risk management benefits. However, many of these structures 
also support other uses, such as hydropower, water supply, and 
recreation.
    Over time, these facilities have aged and deteriorated, and 
can only sustain their intended function with regular 
maintenance and periodic rehabilitation. In addition, many 
external factors will complicate efforts to sustain the 
viability of this infrastructure. Variables ranging from the 
frequency and intensity of natural hydrologic and seismic 
events to the sizes of the populations living and working near 
the infrastructure compound the difficulty of decisionmaking.
    The Corps is addressing these challenges in a risk-informed 
manner. We make informed adjustments to ensure that resources 
are invested in an efficient and technically robust manner. For 
example, our dam safety program enables the Corps to extend the 
period that a project can provide some or all of its authorized 
benefits by investing in measures that reduce the principal 
safety risk at our dams to an acceptable level.
    When it comes to addressing our Nation's dam and levee 
safety challenges, the Corps' responsibilities generally follow 
project-specific authorities for managing infrastructure that 
the Corps owns and operates. The Corps also has programmatic 
authorities for participating in the national community of dam 
and levee safety. In reaching decisions on potential safety 
measures at the dams or levees that it owns and operates, the 
Corps considers the public safety, economic and environmental 
risks posed by the infrastructure, the cost of reducing those 
risks, and the authorized project benefits that a proposed 
safety improvement would enable the project to continue to 
provide to society.
    In summary, dams and levees are an important part of the 
Nation's water resource initiative. Management practices are 
aimed to ensure our Nation is well positioned to safely monitor 
and manage water resource infrastructure. For the dams and 
levees that our Corps owns and operates, we are working to 
balance the cost, responsibilities, risks and benefits in order 
to inform our decisions that guide the safe operation, proper 
maintenance, and effective management of risk. A similar 
framework of risk-informed management may also help meet these 
objectives for decisions on the safety of other dams and levees 
across the Nation.
    I am honored to lead the United States Army Corps of 
Engineers, and I appreciate the opportunity to testify today 
and look forward to answering your questions. Senator Carper 
asked is the Government up to this challenge. The Corps of 
Engineers is up to this challenge. The vision of the Corps is 
to be able to engineer solutions for the Nation's most critical 
challenges. We have the capacity and the competency to do just 
that.
    Thank you, sir.
    [The prepared statement of General Semonite follows:]
    
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
       
    Senator Inhofe. Thank you, General Semonite.
    Commissioner Wolf, we will pass over you temporarily and go 
to Mayor Corbett.

             STATEMENT OF HON. RON CORBETT, MAYOR, 
                       CEDAR RAPIDS, IOWA

    Mr. Corbett. Thank you, Chairman Barrasso and Ranking 
Member Carper, Senator Ernst, Senators and staff members. On 
behalf of the citizens of Cedar Rapids and the people of 
eastern Iowa that work every day in Cedar Rapids, thanks for 
giving us an opportunity to tell our story today.
    In June 2008, the Cedar River in Cedar Rapids crested more 
than 10 feet above any previous flood, at 31 feet. The 
unthinkable happened. The floodwaters covered 10 square miles, 
which is 14 percent of our city. 6,865 residential properties, 
754 commercial industrial properties, 310 city facilities were 
damaged, totaling more than $5.4 billion in losses. The flood 
devastated our residents, our businesses, our entire community.
    But not all was lost. There are two things we didn't lose, 
Senators. One, we didn't lose any lives. Thanks to our 
emergency response team and the hundreds of boat rescues, no 
lives were lost in our community. And if you think about it, in 
the various disasters in each of your respective States and 
around the Country, oftentimes, during the news reports of the 
disaster, included in those reports is the death toll; and in 
Cedar Rapids no lives were lost. And in some bizarre way, today 
we feel, 9 years later, the fact that we were so successful in 
saving lives, that maybe goes against us.
    And the second thing that wasn't lost was our will to 
rebuild our city stronger and better than what it was before 
the flood.
    So as damaging and catastrophic of the 2008 floods, our 
recovery has been equally impressive by any standard. With your 
help, through FEMA, HUD, the Justice Department, along with the 
State and local government, the private sector, the nonprofit 
sector, the faith community, we began that journey to rebuild 
Cedar Rapids building by building, house by house, neighborhood 
by neighborhood. That included our infrastructure of water and 
sewer. Quite remarkable.
    But as we were rebuilding, we always had one eye on the 
future, and that future meant a permanent flood protection 
system in Cedar Rapids. That confidence that our business 
community had and our residents had to reinvest, and the 
momentum that we have gained, has all been based on having 
long-term flood protection. So from the beginning we have been 
working with the Corps, and we were so anxious when the Corps 
was ready to reveal their plan for Cedar Rapids, only to unveil 
the plan that protected just one side of the river.
    Imagine being a mayor or a resident of a community when you 
are told you are allowed to protect one side, but the other 
side isn't. How do you say that lives on one side of your river 
are worthy, but lives on the other side of the river are not 
worthy?
    I asked why, and they said it is because of the benefit-
cost ratio, a formula, some algorithm. Senators, we don't 
govern Cedar Rapids based on an algorithm. We rejected the 
benefit-cost ratio and worked with the State to develop a 
funding mechanism to protect the west side.
    So here we are, 9 years later, finding ourselves again 
disadvantaged by the benefit-cost ratio. It is based on value 
of property. And when Cedar Rapids is compared to other 
communities around the Country, we come up a little shorter 
because the values in our community or smaller Midwestern 
States just are not equal to the value in the larger 
communities.
    This past September we had another event. We were able to 
win this time over the river, so we have evened the score. The 
river 1, community now 1. But now we know it is not a question 
of if it will flood again, but when. And we need to have that 
long-term flood protection for our community, so again, 
Senators, we seek your help.
    Thank you.
    [The prepared statement of Mr. Corbett follows:]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Senator Barrasso.
    [Presiding.] Well, thank you very much, Mayor Corbett.
    You may have noticed people are coming and going. We are in 
the middle of two votes, so we will continue to come back and 
forth.
    At this time, though, I would like to turn to Commissioner 
Terry Wolf, who is Chairman of the Washakie County Commission 
in Worland, Wyoming. He is a former member of the Wyoming Army 
National Guard, has a degree in administration of justice from 
the University of Wyoming.
    Commissioner Wolf moved back to Worland in 1995 to work in 
the oil and gas industry. Upon transitioning out of the 
National Guard, Commissioner Wolf ran for a seat on the 
Washakie County Commission, was sworn into office January 2003. 
He was past President of the Wyoming County Commissioners 
Association, currently Vice President of the Wyoming 
Association of County Officers. Also serves on the National 
Association of Counties Public Land Steering Committee, and 
during his 15 years as a county commissioner he has represented 
the county as a Federal cooperating agency on the Big Horn 
National Forest Plan revision and the Big Horn Basin BLM 
Resource Management Plan revision.
    So I want to welcome you to the Committee, Commissioner 
Wolf. I want to thank you for agreeing to testify here today. I 
see you have a number of other commissioners from the State of 
Wyoming who are here to cheer you on, and I see Pete 
Obermueller here, who is also the Executive Director of the 
Wyoming County Commission Association.
    Commissioner Wolf.

    STATEMENT OF HON. TERRY WOLF, CHAIRMAN, WASHAKIE COUNTY 
                     COMMISSIONERS, WYOMING

    Mr. Wolf. Good morning, Chairman Barrasso, Ranking Member 
Carper, and distinguished members of the Committee. Thank you 
for the opportunity to speak today. My name is Terry Wolf. I am 
the Chairman of the Board of County Commissioners in Washakie 
County, Wyoming. Washakie County is located in rural northwest 
Wyoming, with an annual revenue of only $8 million. It is the 
third poorest county in Wyoming. Washakie is one of four 
counties in the Big Horn Basin. You can find a map in Appendix 
A in my written testimony. This area of Wyoming is well known 
for its sugar beets that are grown and processed into pure 
U.S.-made sugar for consumption. The high yield of agriculture 
production is dependent upon the Big Horn River.
    Unfortunately, this same river that brings so much life 
also brings destruction to our communities in the spring when 
ice blocks the size of trucks and weighing up to 300,000 pounds 
jam up and block the flow of the river. The ice jams push the 
water over the banks and into the communities in Worland, 
Manderson, Basin, and Greybull, flooding homes and businesses 
and threatening the sugar processing plant that I already 
mentioned.
    Mr. Chairman, I want to direct your attention to the before 
and after photos on the easel of the flooding that occurred in 
Worland on February 11th of this year. In the before photos you 
can see, in the foreground, an island in the middle of the 
river that was formed from sediment buildup over the course of 
years. In the after photos you get a clear picture of the ice 
blocks creating a dam at that island and causing the flooding.
    Over the course of a week, city, county, State officials, 
the Wyoming National Guard, and numerous volunteers worked 
tirelessly to protect public and private property and critical 
infrastructure threatened by the flood. We are still evaluating 
total cost to our communities in damage cleanup, but estimates 
will likely exceed $150,000.
    While this flood is heartbreaking by itself, what is 
important for the Committee to know is what happened in Worland 
a couple weeks ago is almost identical to the flooding in 2014. 
That same island gathered and held ice blocks and pushed over 
the Big Horn River into Worland, costing State and local 
governments nearly $200,000 in recovery costs. For a rural 
county like Washakie, these costs are difficult to bear.
    For a clear picture of the sediment buildup on this island, 
I direct your attention to the next aerial photos that show the 
20-year span of buildup on that island. We at the local level 
must confront this issue because the exact same flooding is 
likely to occur year after year, depending on the severity of 
the winter. Following the 2014 flood, we pursued the 
possibility of removing the island. Initial estimates at the 
time indicated that the removal of 1.7 acres of area at a depth 
of at least 5 feet, requiring 1,700 truckloads would ensure 
free-flowing passage of ice blocks.
    While a project like this is very small for an agency like 
the Army Corps, it is much too large for a community as small 
as ours to tackle on our own. Section 205 of the Flood Control 
Act of 1948 authorizes the Army Corps of Engineers to partner 
with local and State agencies on small damage reduction 
projects not specifically authorized by Congress. While we 
initially pursued a Section 205 project in 2015, we backed off 
after inquiries uncovered the likelihood of difficult and 
expensive bureaucratic hurdles and the potential of more 
stringent environmental permits to remove the sediment island.
    Additionally, while the Federal share of costs associated 
with these small projects is significant, we were concerned 
that the local share was still much more than the rural 
agricultural-based county could meet. Finally, it appeared that 
the Army Corps simply hadn't used the Section 205 program for 
ice jams to the extent it had for other more traditional flood 
damage control measures in other areas of the Country and, 
therefore, may not have believed it had the flexibility 
necessary to deal effectively with the problem.
    With that in mind, we were pleased to see Congress include 
language specific to ice jams in the Water Infrastructure 
Improvement Act for the Nation, passed just 2 months ago, in 
December 2016. That language requires that the Corps identify 
and carry out not fewer than 10 projects to demonstrate 
technologies and designs developed to prevent and mitigate 
flood damages associated with ice jams.
    Removal of the island appears to be the solution to our 
flooding in Worland, but at the local level we are flexible 
enough to explore other options if the Army Corps is flexible 
enough to make use of this new language to research and explore 
cost-effective technologies to mitigate what is likely to be a 
repeated disaster in our area. We remain concerned about the 
monetary and human capital costs associated with these 
projects. However, Washakie County stands ready to work 
alongside the Army Corps of Engineers on any viable and cost-
effective solution for the protection of our community. We hope 
that Washakie County and the Big Horn River will be among the 
first of the cold region pilot projects.
    Seasonal runoff or unique weather events are things over 
which we have no control, but floods caused by ice jams and a 
sediment island in the Big Horn River is something we can 
control with the Assistance of the Army Corps of Engineers. I 
am here to ask both the Corps and for your help to ensure that, 
as you move forward with funding infrastructure projects of 
great importance to the Nation, you do not forget about these 
small projects in rural areas that are of critical importance 
to our local communities.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wolf follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    Senator Barrasso. Well, thank you so much, Commissioner 
Wolf. We look forward to questions.
    If we could turn now to Secretary John Laird. Mr. 
Secretary.

    STATEMENT OF SECRETARY JOHN LAIRD, DEPUTY SECRETARY FOR 
     EXTERNAL AFFAIRS, CALIFORNIA NATURAL RESOURCES AGENCY

    Mr. Laird. Thank you very much, Mr. Chairman, and also 
Ranking Member Carper, Senator Harris, and members of the 
Committee. On behalf of the State of California and Governor 
Brown, I thank you for the opportunity to provide testimony 
before this Committee at this particularly vital time on our 
issues.
    As you know, our Nation's aging infrastructure is at a 
crossroads. One path is characterized by inaction, putting 
human lives, our natural resources, and the economy at risk; 
another path is shaped by deliberative policies, meaningful 
investment, coordination across all levels of government, and 
the incorporation of new science that can provide multiple 
benefits to common outcomes. Right now California approaches 
this situation with a sense of urgency.
    Droughts and floods have always driven the evolution and 
growth of California water policy investment and scientific/
technical understanding. This year is no different.
    But after 5 years of the driest seasons in modern times, 
California is now in the midst of what is likely to be the 
wettest season on record, in the history of recordkeeping in 
California. This just demonstrates that California has the most 
variable weather of any State in the Nation and often depends 
on the bounty of just four or five storms per season to support 
our water system.
    The number, size, and severity of storms this water year 
has strained the State's flood control and water management 
infrastructure, forcing evacuations, damaging roads, destroying 
homes, communities, and livelihoods. It is estimated that 
damage to California's highways alone from the storms this year 
is $595 million thus far.
    Most dramatically, damage to the main spillway on the 
Oroville Dam, the second largest reservoir in California, and, 
as the Chair said in his opening comments, the largest dam in 
the Nation, serves as the keystone of the California water 
project, and it was observed on February 7th by water managers. 
Damage to the main spillway and rapid erosion of the emergency 
spillway led to the emergency evacuation of nearly 200,000 
downstream residents in Yuba, Sutter, and Butte Counties.
    With crews working around the clock, the danger has since 
passed and residents have returned home. The reservoir remains, 
right now, at least 50 feet below the capacity level, and 
repairs continue as dam operators plan for an extended flood 
season due to an extremely high snowpack.
    Over the last decade alone, over $11 billion has been spent 
by Federal, State, and local agencies in California on flood 
control projects. California's extraordinary response to this 
year's storms was only possible due to local, State, and 
Federal cooperation and significant prior investments.
    California has the leading dam safety program in the 
Nation, as recognized in a peer review by the Association of 
State Dam Safety Officials. But we can and must always do 
better.
    This event has drawn much needed attention to the age, 
condition, maintenance, and financial needs of California and 
the Nation's flood control and water management systems. We 
should use the opportunity that is presented by this situation 
to invest in existing infrastructure and fund innovative 
projects that leverage science to meet the challenge of extreme 
weather and variable precipitation, and accomplish multiple 
benefits and goals within the investment.
    While we welcome the partnership, California is not waiting 
for the Federal Government alone to meet this urgent need and 
real opportunity. As a first step, last Friday, Governor Brown 
redirected $50 million from the State's General Fund and 
requested a $387 million Proposition 1 appropriation from the 
State legislature to fund near-term flood control and emergency 
response actions.
    To complement the immediate actions of our State agencies, 
as Secretary of Natural Resources, I have requested the 
following actions from our partner Federal agencies: that we 
expand inspection and review of all federally owned dams in 
California and parallel to California's efforts; to update the 
Federal operating manuals for key California reservoirs. It is 
imperative to revise these manuals to reflect current 
scientific knowledge. The Corps needs to be fully funded to 
complete these updates or allow non-Federal authorities to 
finance the work. My letter asked that we fund the recently 
enacted Water Infrastructure Improvements for the Nation Act, 
which authorizes a program for rehabilitation of high hazard 
dams at FEMA. Also, prioritize the publication of the program's 
rules to assist California and other States in this 
rehabilitation effort.
    So we have an opportunity and we really look forward to 
working with our Federal partners, and I look forward to being 
able to answer questions.
    [The prepared statement of Mr. Laird follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Senator Barrasso. Thank you very much for being with us and 
for sharing your insight, Secretary Laird.
    Mr. Larson.

  STATEMENT OF LARRY A. LARSON, P.E., CFM, DIRECTOR EMERITUS/
SENIOR POLICY ADVISOR, ASSOCIATION OF STATE FLOODPLAIN MANAGERS 
                        INC., WISCONSIN

    Mr. Larson. Thank you, Chairman Barrasso, Ranking Member 
Carper, and the rest of the Committee staff.
    I have been working in the water resources profession for 
55 years. In fact, my first job out of engineering school was 
to work for the California DWR on the State water project, 
which, as you know, the Oroville Dam is the key.
    I also, for 25 years, ran the dam safety program and the 
floodplain management program in the State of Wisconsin.
    The Association of State Floodplain Managers represents 
17,000 professionals across the Nation who manage flood risks 
to reduce flood losses every day. This includes both structural 
and non-structural approaches, such as land use, building 
permits, community planning, mapping, stormwater management, 
and the rest. We have been very concerned about the status of 
the Nation's flood risk management infrastructure, and in light 
of the ever-increasing rainfall intensity we get even more 
worried.
    Some of our major concerns include this. Flood damages in 
the Nation are really unknown. We don't know how much floods 
cost us every year. That is a real problem.
    Flood mapping. In order for communities and States to 
effectively manage flood risk, they need flood maps, and good 
flood maps. Of the 3.5 million miles of rivers and coastlines 
in the United States, the NFIP has mapped about 1.5 of them, 
and only half of that has a 100-year flood elevation that they 
need to regulate properties.
    The NFIP maps are the base flood maps used by all those 
22,000 communities, all the States, and all the Federal 
agencies. They may build off of them, but they start with them.
    The NFIP now has a good process for mapping and could map 
all communities in the Nation in 12 years if fully funded as 
authorized.
    Topography is also key. The USGS has a digital elevation 
program called 3DEP, and they, if funded, can do the mapping 
for the Nation in the next 8 years.
    Residual risk mapping. One of the key areas this Nation has 
ignored is residual risk, below dams and behind levees, areas 
that will flood when structures either overtop or fail. 
However, even if dam failure maps are available, Federal 
Government policy is not to release the maps to the public. We 
don't quite understand that. No one knows how the risk is if 
they are in a risk zone. It is not appropriate that they find 
that out at 2 a.m., when law enforcement knocks on their door 
and says you have to leave. We must figure out how to solve 
that problem.
    And we must be forward-thinking on national standards. We 
need standards for dams and levees both. You in Congress have 
set up programs in the Corps to develop levee standard and FEMA 
to develop dam standards. Neither of those are funded, however, 
and we must get on with that.
    Add to this low standard the fact that we have mapped and 
built flood infrastructure to yesterday's flood, and not 
tomorrow's flood, I am pleased to hear that I think California 
is doing more of that all the time, and the rest of us need to 
do that too. We need to figure out how to keep those low hazard 
dams from becoming high hazard dams because development occurs 
downstream. There are a couple of States that have figured that 
out, and we need to do it nationally.
    We are pleased to see the Congress and Administration 
looking at the issue of infrastructure, but our experience 
shows that financial incentives are very difficult to apply to 
these projects versus other kinds of projects. Private 
financing will not suffice. We are going to have substantial 
Federal investment in this, as well as State and local 
investment.
    Private investors tell us that they need national standards 
to ensure that what they are funding, or might fund, is 
designed, constructed, operated, and maintained to appropriate 
national standards. Investments should look beyond structural 
flood control. Non-structural projects, stormwater management, 
green infrastructure, nature-based approaches are appropriate.
    Funding should also serve to help build State capability. 
You realize only the States have the authority to oversee 
private dams and levees. The Federal Government cannot tell a 
private dam or levee owner to fix a dam or fix a levee; the 
States have that authority, if they use it. I have run programs 
that do have that.
    You set up some process in WIIN to build State capability 
in dams, but that must be funded to get underway. It is a smart 
investment of taxpayer money.
    In conclusion, the U.S. is facing a substantial need to 
repair and upgrade, and sometimes remove, our flood control 
structure. If you simply appropriated the programs you have 
already authorized in the flood risk management program, the 
3DEP, the national levee safety program, the national dam 
safety program, we would make a big step. The threatened 
failure of Oroville Dam and the actual failure of 80 dams in 
South Carolina in the past 2 years points out that we have a 
public wake-up call.
    Thank you very much.
    [The prepared statement of Mr. Larson follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
   
    Senator Inhofe.
    [Presiding.] Thank you. I just noticed, it was called to my 
attention, that Senator Grassley has come and seated behind 
Mayor Corbett. Did you want to be recognized for anything?
    Senator Grassley. I didn't come here to mess anything up.
    Senator Inhofe. All right. Well, then don't mess anything 
up. That's good.
    Senator Grassley. I just wanted to make sure you understand 
that Iowa, and particularly Cedar Rapids----
    [inaudible].
    Senator Inhofe. Well, I didn't tell him that Cumberland and 
Anita, Iowa is where all of my family was born, so we are 
sensitive to those problems.
    I will begin, because the Chairman is voting now, then we 
will go to Senator Carper.
    General Semonite, in my hometown of Tulsa we have nearly 20 
miles of levee, a system that was built by the Corps of 
Engineers back in the 1940's. We have about 10,000 people 
living within that. We have $2 billion of infrastructure, 
including a refinery, a very large refinery. Seventy years old, 
they are desperate and in need of repair and upgrades. Congress 
authorized a feasibility study and expedited budget 
consideration in last year's WIIN Act. That was our effort. 
With the risk assessment taking over a year longer than 
promised, Tulsa is concerned about more delays in the lack of 
the Corps prioritizing the project. It is my hope that we can 
get this done.
    Now, I am sure that you looked at that before, in preparing 
for this hearing. Our concern is these are old and there is not 
a week that goes by when I am back that this isn't called to my 
attention. What kind of a commitment can you make that we are 
going to get this thing started?
    General Semonite. Thanks, Senator. You bring up a good 
point. When you talk about levees, I think right now we have 
about 15,000 miles of levees that we constructed, but the Corps 
actually only has about 2,500 of those that we actually 
maintain. So we have to be able to continue to reach out to 
find out what can we do to assist. Several people here have 
talked about everybody has to pull their share to be able to 
work side-by-side. On this particular one, this goes back to 
that flood risk management study and to be able to make sure 
that we can review this, get this thing done, and understand 
how we are going to be able to come through on that.
    I don't know exactly the details of where we are at on 
that, and I would like to have my staff come back to you on it.
    Senator Inhofe. It would be a good idea. And I would like 
to ask that you personally look at this because it is something 
that should not have gone this long and it is critical.
    Second, I only have one more question, then we will go to 
Senator Carper. That is, General Semonite, while I have you 
here, I wanted to raise a concern of mine. Congress has 
authorized and, in fact, made it a priority for the Corps to 
work with private partners to develop and maintain recreational 
areas at Corps lakes. However, there seems to be an anti-
development mentality within the Corps, at least within the 
Tulsa district, that I think needs to be overcome. In fact, I 
am going to give you a quote, a senior staff member within the 
Tulsa district told my State director, and this is a direct 
quote, he said, ``If I had my way, I would end the lake 
development altogether.''
    I would just like to ask you does this reflect a philosophy 
within the Corps that you are willing to talk about?
    General Semonite. Sir, it certainly does not reflect our 
Corps philosophy. We are very aggressive on continuing to find 
many, many different options on recreation. Some of these are 
Corps-owned and Corps-maintained. There are other ones where we 
have concessions to come in and do recreation.
    Senator Inhofe. But is one option to end all development?
    General Semonite. No, sir. I think every one of these 
projects is different. I don't know the exact details of what 
was said, but our philosophy is to continue to look at how we 
can continue to partner with the stakeholders and to try to 
continue to find a good compromise solution on that. So I will 
find out what is out there and get back with you, OK, sir?
    Senator Inhofe. Oh, that is good. Thank you, General.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    To our friends, welcome. Senator Grassley, nice to see you 
out there in the audience. You have the back of your mayor 
there. Good work.
    Before I say anything, I just want to say to General 
Semonite how much we in the Del Marva Peninsula appreciate the 
opportunity to work with the Philadelphia Regional Office. The 
folks there, you have terrific people and we are grateful for 
all the good that they do with their lives on behalf of the 
folks that we serve in Delaware, the eastern shore of Maryland, 
eastern shore of Virginia. So thanks.
    We sometimes get to work with your folks from the Maryland 
office, the Baltimore Office.
    General Semonite. Yes, sir.
    Senator Carper. We are grateful for that too.
    Someone mentioned, I don't know, maybe it was Mr. Larson, 
somebody mentioned the funding, and I understand that in some 
cases we have passed legislation authorizing new support for 
non-Federal dam repair and rehabilitation efforts beyond the 
traditional Federal role. We haven't appropriated the money. I 
am reminded of a law in this Country called mandates, unfunded 
mandates law. That is it, unfunded mandates law, where we 
basically set standards and say you have to do this, but we 
don't provide the money to do it.
    I don't know if that is the situation here or not. Is it?
    Mr. Larson. Well, that was in the WIIN that set up that 
grant program with FEMA. That has not been funded. And the 
first thing that has to happen when it is funded is FEMA needs 
to put together experts nationwide to put together standards 
for dams for design, construction, operation, and maintenance; 
and then with that in mind they can set up criteria for which 
dams they fund and make sure that the work is done 
appropriately. We need those national standards and that 
program needs to be funded. Now, that is the one that was just 
passed in December, so this is your first crack at trying to 
get it funded this round of funding.
    Senator Carper. All right, thanks.
    Back to General Semonite. Events such as the near failure 
of the spillways at Lake Oroville have further highlighted the 
issues and risks associated with dams near populated areas, as 
you know. Although the Federal role in dam rehabilitation and 
repair traditionally has been focused on rehabilitation of 
Federal facilities and support for State dam safety programs, 
some have argued for an increased Federal role in non-Federal 
dam safety and rehabilitation, sort of following up on what I 
was asking Mr. Larson.
    But, in particular, recently passed legislation I have 
alluded to authorized new support for non-Federal dam repair 
and rehabilitation efforts beyond traditional Federal role. The 
extent to which these authorities are funded remains to be 
seen. We will get a budget from the President and the 
Administration hopefully in a couple weeks, and we will have an 
opportunity to see what they suggest; do hearings and move 
forward.
    But, General, aside from funding these critical programs, 
what more could the Federal Government do to address the risks 
posed by failing levee and dam infrastructure?
    General Semonite. Senator, that is a great question, and 
this panel today really is the perfect time to ask that 
question because these rivers, these flood management 
structures are all intertwined. This is a system, so you will 
have some Federal, you will have State, local, and private. All 
of it has to work together. Anything that one element does is 
going to affect the other.
    So clearly we have some Federal structures, but I think the 
other thing is we have an awful lot of expertise. We have 5,000 
certified dam and flood control experts in the Corps that not 
only take care of our 715, but are more than available to go to 
other places. Oroville is a great example. We have 50 people 
out there that have been working for the last several weeks 
side-by-side with John's guys to continue to be able to make 
sure we are looking at what can we do to mitigate the current 
risk, but also to be able to make sure what about be able to 
rebuild, and how can we use some of the lessons learned in the 
Federal areas to be able to go back in and help the State.
    Same thing, some of the things that these gentlemen are 
doing here may be great opportunities out in the field. How do 
we wrap those back in to learn how to run our Federal systems 
better? So I think it is a shared understanding of the 
technical competence to be able to make sure that we are all 
working side-by-side.
    Senator Carper. OK. I was going to ask a question relating 
to shared responsibility. I think you pretty well answered 
that, so I am going to ask a question, maybe a first cousin of 
that.
    How can States, particularly smaller States like our State 
of Delaware, ones with coastline, coordinate and/or pool 
resources to help the Corps complete bigger and more efficient 
flood control projects?
    General Semonite. Sir, obviously some studies, if there are 
some things out there. I mean, we have an unbelievable 
relationship all through the vertical team, and our districts 
are talking to the States and imbedded in the States, if there 
are some things where we think we can lean on some of the State 
expertise to be able to help get justification or to be able to 
have better understanding of the return on investment. Senator 
Barrasso talked about the value of making sure we are making 
the taxpayers' dollars go a little bit further. I don't know if 
I have an exact answer back into Delaware, but wherever we can 
team with this Federal team to be able to make this whole 
system more resilient, that is what we are really trying to do.
    Senator Carper. All right, thanks so much.
    Senator Barrasso.
    [Presiding.] Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank all of you. I would like to ask General Semonite a 
question, just prefacing it by reminding those who are watching 
and the General himself might recall that last summer West 
Virginia had one in a thousand-year flood occurrence that took 
the lives of, I think, 23 West Virginians lost their life. It 
was very fast and the Corps has been trying to repair these 
communities and these waterways.
    So my question is in the WRDA bill that we passed at the 
end of last year, I am just kind of putting this feather back 
into your cap to remind you that the Secretary will conduct 
studies to determine the feasibility of implementing projects 
for flood risk management, ecosystem restoration, navigation 
water supply, recreation, and other water resources in the 
Kanawha River Basin, which is pretty much fully encompassed in 
this southern part of West Virginia, but also Virginia and 
North Carolina. So I am just asking you, General, to make a 
commitment that you are moving forward on that study and what 
we might expect from that.
    General Semonite. Yes, Senator. We will certainly do that. 
You talked about how fast that happened. I think you had 10 
inches of rain in less than 24 hours.
    Senator Capito. Right.
    General Semonite. This is where we are seeing, whether it 
is climate change or other hydrological events, the surge of 
some of the flash opportunities here is unbelievable and we 
have to be able to negate that risk. But we definitely will 
have that commitment to continue to support.
    Senator Capito. Thank you so much. And that gets me to 
another question connected with that particular incident. 
Howard's Creek, which is not a large body of water, it sounds 
small, it is a larger creek, but it is the one that rose and 
really took so many lives so quickly. So when you are looking 
at small waterways, is the best use of your resources in these, 
because there are so many, you obviously can't be everywhere, 
is to train the local, not just State, but even locals to try 
to take this opportunity to improve Howard's Creek so this 
doesn't happen again? I mean, is that how you move forward from 
something like this?
    General Semonite. Yes, Senator. There is obviously a lot of 
flood fighting that can be done to be able to mitigate this. I 
think the mayor from Cedar Rapids made a very good point: all 
lives are just as critical; all property is just as important 
wherever you are living in the United States. So whether it is 
a large facility or a small facility, a large river or a small 
stream, we are just as committed to be able to partner to make 
sure that we can mitigate those damages that are out there.
    If that is not done through structural, and we had some 
good discussions here, it is a lot of those other components. 
How do you do that through training? How do we make sure that 
we have some of the greener aspects to be able to do it, 
whether it is zoning and other things? How the vertical team 
all represented here can share some of those lessons learned to 
be able to make sure communities have that capability, I think 
that is an important tool.
    Senator Capito. Well, thank you. I think that is good and I 
am sure the city of Cedar Rapids had that rapid rise as well, 
and it was very costly.
    I want to shift to dams. We live in a mountainous State. We 
have hundreds, I think 614 dams. Most of them have been 
studied, although several of them, high hazard dams, have not 
been rated, rated as in r-a-t-e-d. So we can't just tell are 
they satisfactory, poor, unsatisfactory, or where their rating 
is.
    How can we prioritize our projects if we don't have full-
out rating and accurate information on the existing dams that 
we have throughout the States?
    General Semonite. So, Senator, let me give you at least the 
Federal perspective. On our 715 dams, they are rated, we know 
exactly where they are at. There are five different rating code 
and, if need be, I can tell you exactly where the Federal 
inventory and portfolio are with respect to that.
    Senator Capito. OK.
    General Semonite. I think the challenge is the Federal 
rating system, which is a very robust rating system, how does 
that then get incorporated into States, local, local 
communities, and even private communities so that then, 
somewhere, we have the ability to understand how to rack and 
sack them. The Corps does run the dam safety data base. We have 
12,000 dams that are in that data base. I think we have to go 
back and look at the standards, and if there are some areas 
where we haven't had the level of fidelity in the rating, then 
we will go back and do whatever we can to help advise how we 
can do that better.
    I am not necessarily aware that there is contention there; 
I think it is just how do we continue to do a better job on 
that.
    Senator Capito. Well, you know, in fall fairness to the 
State, the State has six people working in this area. When you 
have 700 structures and other issues that they are dealing 
with, it is a manpower issue, it is technical issue. So I am 
glad to know that, with your expertise at the Corps--and the 
Huntington Corps is really most, but we do have some Pittsburgh 
Corps too, I want to give them a shout out, they have been very 
good. We also have some Baltimore Corps, so they are doing 
well. Our State, with its odd shape, we get good exposure to 
the Corps. I will say that. And we have lots of water.
    So I appreciate your willingness to coordinate with our 
State to make sure that we get these dams and these structures 
up safe. Also for these fast water occurrences, which we just 
had another one again this morning, we need to be able to cope 
better on the ground. We are great at recovering and helping 
people, but prevention is where we would really like to be. So 
I appreciate your input here.
    Thank you.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman. I am delighted 
that we are having this issue. I want to take a minute to 
respond to the point that Mr. Larson made, which I think is 
incredibly important, particularly for us who are here 
representing coastal States.
    One of the basic facts about climate change is that the 
vast majority of the heat that has hit the planet and is 
trapped here as a result of climate change, as a result of our 
carbon emissions, has been absorbed by the oceans. I see the 
General nodding. Of course. The oceans are our great cooling 
system, and the excess heat goes into the oceans in enormous 
amounts. And there is a very basic physics proposition called 
the law of thermal expansion, so when the ocean gets warmer, it 
rises. And for coastal States we are seeing real problems. We 
have 9 feet of sea level rise projected for this century along 
Rhode Island's shores. Nine feet of sea level rise.
    This shows itself already in places like this. These are 
summer cottages along our Rhode Island coast, and this is after 
a recent storm. And the lady who owns that house, I remember 
speaking to her. She was about maybe 60-plus years old, and she 
remembers as a little girl that house had a yard. They could 
play in the yard of it. And on the other side of the yard was a 
road that people could drive down to the beach in, and then 
there was a little parking area where the cars could park that 
had come down the little road, and on the other side of the 
little parking area was a beach which she remembers as a little 
girl was a long run across the beach in the hot sun to get her 
feet into the cool water from the hot sand of the beach.
    All of that is gone now and the house has gone into the 
sea. We are seeing this over and over and over again, and it is 
worsening and it is accelerating. So people may want to quarrel 
about climate change here for a variety of reasons, but this is 
not funny along our coasts. It is for real.
    Here is Downtown Newport just after Sandy, which missed us, 
by the way. This is a very small side effect of the big hit 
that was nearby. And this is not ordinarily kayakable, as you 
can see from the stores that have their floors filled with the 
harbor, basically.
    So the problem that we have that I would like to make sure 
the General is listening to as well is exactly what Mr. Larson 
said. He said that when you are dealing with this problem, you 
need flood maps, and you need good flood maps; and what we are 
preparing for is yesterday's flood and not tomorrow's flood.
    I think I have quoted you correctly, Mr. Larson.
    In Rhode Island we have done our own independent review of 
FEMA's coastal flood mapping, and our Coastal Resources 
Management Agency and our university find that the FEMA maps 
are, frankly, just dead wrong. They have all sorts of errors. 
They fall way short of incorporating experienced levels of 
storm surge. They don't accurately reflect dune protection for 
the land behind it; they exaggerate dune protection by amounts 
that are really astonishing. They rely on very outdated models. 
The models are so bad that when they run the transects in the 
model along the beach, showing where the harm is going to be, 
they find a 5-foot differentiation at the model line in some of 
their transects. That is a symptom of a flawed model, when you 
have 5-foot differentiations.
    And the result is that the flood mapping along our shores, 
and I think along other shores as well, is badly erroneous, 
which means that a lot of people who are depending on FEMA 
flood mapping to assess the risk to their homes are being 
misinformed. And we really need to get this right, because if 
it is happening in Rhode Island, it is happening everywhere. A 
number of the other States that have cross-checked what their 
data is against the FEMA models show that the FEMA models are a 
failure. When we have asked FEMA to recreate its modeling, they 
can't go back and recreate the models, which is another very 
strong sign of a failure in the process.
    So when I am forced to look at homes like this going into 
the water, that families have, in some cases, had for 
generations, they have been passed on and on, like I said, this 
isn't funny. And it is bad enough when this body won't pay any 
attention to climate change, for reasons that I won't go into 
here, and it is hitting home in this way in my home State, but 
then when we have to try to quantify the damage and we don't 
get good information because FEMA simply has it wrong, that is 
very significant.
    My time has expired. I wanted to emphasize Mr. Larson's 
point.
    I thank you, Chairman, for hosting this and allowing him to 
bring it forward.
    General, this is not your Army Corps problem; this is a 
FEMA problem, but to the extent that the Army corps and FEMA 
interact on so much of this coastal stuff, I want to make sure 
you know and take home how badly their mapping fares against a 
professional assessment done by the affected States.
    With that, I will conclude. I thank you.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    General Semonite, first of all, thank you for your service. 
We appreciate you being here today. We appreciate what you do 
on a regular basis. I just wanted to talk a little bit about I 
am from South Dakota and we have the Missouri River, which 
comes right down to the middle of our State. We have the main 
stem dams, which provide a huge amount of benefit and most 
certainly has been a good thing for our State, along with all 
of the States surrounding us.
    I am becoming increasingly concerned about the potential 
for Missouri River flooding as a result, this year, of the 
snowpack levels and the decrease in available storage capacity 
in the Missouri River reservoirs. Through regular communication 
with the Corps and the South Dakota Department of Environment 
and Natural Resources, it has come to our attention that 
mountain snowpack levels are about 133 percent of average 
between the Fort Peck and the Garrison basins.
    What is the Army Corps' plan to manage water levels in the 
Missouri to prevent flooding along the upper Missouri this 
year? I know that right now NOAA is predicting above average 
precipitation in the coming weeks. Does the Corps have concerns 
about the increased risk of flooding that could be caused by 
above average rainfall, and what is the Corps doing to address 
these concerns? This is one of the major issues that occurred 
in 2011 and we have a lot of folks out there that are watching 
the fact that we are just at the flood level, just at the base 
of the exclusive flood control today. Where is the Corps at 
right now and what do you anticipate in terms of your ability 
to manage what may very well be some significant inflows?
    General Semonite. Senator, great question. Yes, the Corps 
is very concerned about snowpack across all of the United 
States. We are watching California very, very closely right 
now. Through any of these systems, you know, several years ago 
we had scenarios where, if you get too much snow, then 
obviously you can't be able to bring down the flood pool enough 
to be able to absorb that. So we watch it the best we can. This 
was authorized in WRDA 2014.
    The challenge, I think, is the ability to be able to do the 
monitoring and the modeling to do that. Right now we don't 
necessarily have appropriated funds to go to the next level to 
be able to model that to a higher extreme, so we are doing the 
best we can. We are taking the tools that are available. I 
think the question is are we able to project what that would 
equate to when it comes back to what is going to happen to 
those pools.
    So that is not a good answer, but the bottom line is we are 
always concerned about snowpack. I am not sure that we have the 
fidelity right now and the science to be able to understand as 
much as we would like to know on how that is going to project.
    Senator Rounds. We had major floods in 2011. The Corps 
actually did an in-house review and actually asked for outside 
folks to come in and help them. They recommended that you have 
additional monitoring equipment put into the plains area. That 
was in 2014. You have had 2015, 2016, 2017. Now coming up on 
2018. This last summer we had field hearings in which 
representatives from the Corps told us exactly what you did 
just now, and that was you didn't have the appropriation.
    I don't think, in looking back at it in our review, that it 
has ever even been requested. What I would like to know, No. 1, 
is are you planning on putting in a request for it? And, second 
of all, if you did, since you are not going to have it this 
year, do you have plans to at least attempt to modify by 
releasing some early flows so that we don't have the 
possibility of the kind of floods that we had in 2011?
    General Semonite. Sir, I have to get back with you on that 
to be able to make sure I understand exactly the details of 
what we are prepared to do. I know there are some funding 
challenges. That is not, obviously, acceptable, but the bottom 
line is I think we are doing everything we can with the funds 
available to be able to project what is going to happen.
    We are concerned and we look at what those projections 
could be. We clearly have the authority under the water control 
manuals to be able to start bringing that water down just based 
on the analysis we have right now.
    I owe you a better answer, sir, on what we can do to be 
able to fix that.
    Senator Rounds. There is a real interest on the part of the 
upper basin after 2011. A lot of people out there are concerned 
right now because they can see the water levels, as well, and 
they can read the reports. Do you have any plans for 
communication with local communities along the way in terms of 
the review that you are doing? In 2011, it seemed to me that 
one of the biggest concerns, matter of fact, March 3d of 2011, 
in a report in the Omaha Herald, one of the officials indicated 
that we are going to be just fine this year, unless it rains. 
That is not a way to run a major main stem system, and I am 
hoping that is not going to be the comment this year, that we 
are relying on lower or less than normal rainfall downstream. 
If that is the case, we have real problems.
    General Semonite. Yes, sir. And to address your issue on 
the collaboration, we are talking every single day back and 
forth with the hydraulic experts, back into the State, to the 
local communities. We want to be very transparent and 
collaborative on how we can do that to make sure that we are 
learning from you and you are learning from us. But right now 
our goal is to try to continue to be able to bring those 
capabilities down to be able to absorb whatever we think we 
would project for that snowpack that is coming.
    Senator Rounds. Would you continue to provide input or at 
least to provide information on at least a biweekly basis to 
the local communities about where you are at in the flood 
control and any plans you have for some perhaps more stable 
early releases to relieve some of the flow along the Missouri 
later on?
    General Semonite. Sir, I certainly see no reason why we 
can't do that. I would think we would be doing it now. Most of 
our stuff is, a lot of times, posted on the Web so it can be 
24/7, everybody can see what we are doing, we are seeing the 
same thing from the State. If there is any reason why we aren't 
being as collaborative, as transparent as we should be, I will 
fix that.
    Senator Rounds. I think more than anything else we really 
want to know is whether or not you are prepared, since flood 
control is the No. 1 priority along there, that if we are up 
into the exclusive flood storage position already, which I 
believe we have just entered into in the first week in March, 
that you are prepared to begin to take actions to release 
perhaps some additional flows to mitigate what might be some 
significant flows in a shorter period of time later on.
    General Semonite. Senator, I certainly want to try to make 
that happen. Every one of those facilities has specific 
authorizations and different rule curves on how they will work. 
I want to make sure that we are operating inside the 
authorities and the parameters that we have established in the 
law and those rule curves to be able to make sure we are doing 
it.
    Yes, I think we want to meet that intent. I want to make 
sure, though, that we are doing it in the authority of our 
current water control manuals.
    Senator Rounds. I know my time has expired, but what I am 
getting at, General, and with all due respect, sir, flood 
control is the No. 1 priority, and that would be above 
navigation needs or above other types of needs. Flood control 
is No. 1. Am I correctly stating that?
    General Semonite. Sir, life safety, without a doubt, is No. 
1.
    Senator Rounds. Thank you, sir. I appreciate it. And, once 
again, thank you for your service. I know you have a tough job 
to do there. Thank you.
    Senator Barrasso. Thank you, Senator Rounds.
    Senator Harris.
    Senator Harris. Secretary Laird, you and I know about the 
longstanding debates in California about water. A very famous 
person once said whiskey is for drinking; water is for 
fighting. So one place in California that highlights that point 
is the Sacramento-San Joaquin Delta.
    Will you talk a little bit about your observations and 
analysis of the infrastructure in the Delta? It is often the 
subject of debate about where that precious water goes in terms 
of the farmers who rely on it and also environmentalists who 
are concerned, rightly, about the endangered species that live 
in that body of water. And that seems to occupy a lot of the 
discussion about the Delta.
    But I have a concern about another point, which is that we 
may not have that debate if the infrastructure that supports 
the Delta is compromised or is weak in any way.
    So, please, if you could address that.
    Mr. Laird. Thank you, Senator. That is a very good 
question. For the uninitiated, all those rivers flow into the 
one place, and then through an estuary to the ocean, and there 
are hundreds and hundreds of miles of levees that have created 
what are known as the Delta Islands, which are farmed, which 
have been farmed in a way that now they have dropped to 20 or 
25 feet below sea level. And they are protected by levees that 
were originally constructed to be agricultural levees and not 
high protection urban levees.
    And we just had a break in the last 2 weeks in the middle 
of a storm. The Delta Island flooded, and it will be hard to 
clean up and repair. And the challenges are Senator Whitehouse 
mentioned sea level rise. If there is a 1 foot sea level rise, 
it would change a flood event in the western Delta from 100 
years to 10 years, meaning more frequency.
    With the subsidence in these islands, if there were a major 
seismic event and a number of these levees failed, salt water 
would actually drain from the San Francisco Bay into the Delta 
and you would have real difficulty recovering farmland. There 
might be an interruption of water supply.
    So the question is it is a huge ticket to do all the repair 
work that might need to be done. The voters, in 2006, brought 
$3 billion to the table. The voters, in 2014, brought $7.5 
billion to the table for everything, the flood control we are 
talking about here, storage, and some of these levee 
improvements. So we know we have a lot to do. We are trying to 
do the high priority projects, and it is a complex system.
    The one other thing is some of these islands are not very 
highly inhabited, so the one where they did the evacuations for 
the levee breach in the last 2 weeks, they evacuated 20 homes. 
You can imagine if that is the tax base to do the kind of 
repairs that need to be done. It looks to State and Federal and 
other entities to really help or else you can't complete it.
    Senator Harris. And to emphasize the significance of it, 
that body of water is the largest estuary on the west coast, 
isn't that correct?
    Mr. Laird. It is.
    Senator Harris. And the farmland that body of water 
supports produces 50 percent of the fruits and vegetables 
consumed by the Nation.
    Mr. Laird. The Federal and State water projects together in 
the Central Valley provide water to 3 million acres of 
irrigated agriculture. So the question is there could be an 
interruption in water supply for that, but there could be just 
damage to farmland itself in the Delta with how the breaks 
happen.
    Senator Harris. So how can my colleagues and I support what 
California needs to do to make sure that the infrastructure 
around that body of water, in addition to the Oroville Dam, is 
supported, understanding that the ramifications are pretty 
extreme and national in terms of the exposure and consequence 
if we don't repair it?
    Mr. Laird. I think that, really, we are bringing all this 
money to the table, and the question is, within the flexibility 
of the Federal Government, can you have loan guarantees. Only 3 
percent of the dams in California are State dams, so there are 
some places where there are local districts or there are 
private entities, utility companies have a number of these 
dams, that a loan guarantee would make all the difference in 
terms of them being able to finance the repairs or the upkeep. 
And obviously if there is an infrastructure bank or revolving 
loan funds or other things, those would be helpful as well.
    If you look at the Central Valley of California, it flooded 
regularly for 80 years, from statehood into the 1930's, and 
there were two reasons: they couldn't correctly measure how 
much water was going by and everything that was designed was 
not really designed for the capacity. But the Federal 
Government stepped in the 1930's and joined with the State and 
locals, and, with that breadth of economic support, that 
brought the modern flood system with weirs and levees and other 
things that Sacramento is second only to New Orleans in danger 
from a catastrophic flood event, and it is that effort that has 
protected Sacramento and other areas in that time.
    Senator Harris. Thank you.
    Thank you.
    Senator Barrasso. Thank you, Senator Harris.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Mayor Corbett, thanks again for being here. Mayor, do you 
believe the safety of your citizens and the economic security 
of your region is vulnerable because you haven't been able to 
get the critical assistance that we talked about earlier from 
the Corps? And, if so, could you explain further on that?
    Mr. Corbett. Thank you, Senator. Yes, our community is 
vulnerable not just from a life safety standpoint, but from an 
economic standpoint. As I made mention in my opening remarks, 
the recovery of Cedar Rapids has been phenomenal, as we 
actually gained population in the last census and the business 
community has reinvested in our town. So we do have that 
momentum and that restored confidence in our community.
    Now, we haven't sat idly by the last 9 years since the 
flood. We have actually been working locally to incorporate 
flood mitigation efforts in our town. Right after the flood, 
the recession hit 4 months later. Our own citizens voted for a 
sales tax referendum, an increase of one penny for 60 months, 
to help provide additional resources to our community; and our 
State government stepped up. You know it very well, you were 
there in the State legislature and approved a funding mechanism 
when the Corps, through the cost-benefit ratio, said that they 
could only even recommend protecting the east side of Cedar 
Rapids, and not the west side.
    We rejected that formula that said one side of town was 
worthy; the other side of town wasn't worthy. Our mechanism 
with the State is going to pay 100 percent of the west side 
flood protection. So our ask of the Federal Government is just 
the 65 percent for east side flood protection. But until there 
are some changes in the cost-benefit ratio, we are going to be 
compared with other communities around the Country that just 
have higher property values.
    Senator Ernst. Yes, absolutely. Quite well put, Mayor. I 
want to thank you for the hard work that you have done for the 
community of Cedar Rapids and for the State of Iowa. Thank you.
    General Semonite, it is good to see you again. Thank you 
for taking the time to sit down with me and go over these tough 
issues.
    I wrote to you last fall, asking about how human safety is 
considered in the decision process to budget and fund flood 
risk reduction projects. The Corps then sent me a letter back, 
in December, stating that these decisions are determined on a 
case-by-case basis. And then a list was provided to me of the 
Fiscal Year 2017 projects that were funded for construction 
because of the significant risks they pose to human safety.
    Now, they also have low BCRs. They are very similar to what 
we see in Cedar Rapids. And I noticed that four out of the five 
projects were in California. Can you explain to me why the 
lives and livelihoods of Californians are worth more than the 
lives and livelihoods of Iowans, particularly since California 
is a very vast State with large amounts of economic resources?
    General Semonite. Senator, great question. I think I said, 
when you were out, every single American, every single property 
have all the same value. We have to be able to continue to take 
care of all of the Country. And Cedar Rapids has done better 
than almost anywhere else in figuring how to mitigate this 
significant challenge.
    You are very, very aware you have an authorized project. 
The big question is the ability to be able to find funding to 
be able to do it, and the mayor is exactly right, there are a 
lot of concerns out there. We are worried. We made a 
significant Federal investment when it came to the 
authorization of that. We are continuing to figure out to do 
every single thing we can to try to find how we can now secure 
the right amount of money to be able to at least start that.
    The challenge we have, and this goes back to, I think, why 
we are all here today, is that the requirements grossly exceed 
the amount of money in the Federal budget. Just the Federal 
dams alone, $24 billion to be able to buy down the worst ones.
    Now, we are getting funded to capacity and the Congress has 
done a good job of taking care of us on the Federal ones, but 
when it comes to all of these other areas for flood control, 
the question is how can we try to hit all those requirements. 
The best thing we can do is to continue to work with you to 
figure out are there other parameters or other solutions that 
we can somehow be able to figure out how to take care of the 
mayor out there.
    The benefit-cost ratio can't be the right answer, because 
like you said, sir, we can't run this Country on an algorithm. 
We have to think about the passion of the people and all the 
work they have done out there. But right now we continue to try 
to champion that project the best we can. We will continue to 
be able to work with you. But I think at the end of the day, 
when the Administration has to figure out how much can we 
afford, elements like this are going to have to figure out are 
there some of those that you can then take a look at that risk 
and where can we afford to be able to buy that risk down.
    Senator Ernst. I appreciate that, General, and I do look 
forward to working with you on a solution that will not only 
benefit those that live in more urban areas or urban States, 
but also those that are finding challenges in the rural areas. 
This is a very important project not just for Cedar Rapids, but 
for the well-being of the entire State of Iowa. So I will 
continue to push for that. I am glad that we can work together.
    Mr. Chairman, I want to thank you for bringing this 
Committee together today to talk about these important issues. 
I know that we struggle with some of those same issues in 
Wyoming, in Iowa, in Nebraska, and I look forward to finding 
that solution with you. Thank you very much.
    Senator Barrasso. Well, thank you very much, Senator Ernst. 
I look forward to continuing working with you on this, as we 
discussed in the meeting in your office, the critical need for 
this additional work. So thank you for all your efforts. Thank 
you.
    Before I begin my questioning, I would like to demonstrate 
the impact that ice jam flooding has had in communities in 
Wyoming. This is the Northern Wyoming Daily News from Tuesday, 
February 14th. You have seen this, Commissioner Wolf.
    One hundred plus homes evacuated. Ice jamming along Big 
Horn River causes second major flood in 3 years, with pictures 
of the Wyoming National Guard placing sandbags in Wyoming. So 
this is affecting different parts of the Country and I just 
wanted to visit with you, if I could, Commissioner Wolf, 
because last week many people from Big Horn County went to 
Grable to celebrate the life and mourn the death of our fire 
chief, Paul Murdoch. The gym at the high school was jammed. 
People came in fire trucks from all around. He died after 
fighting not a fire, but an ice jam on the Big Horn River in an 
effort to prevent flooding in Grable. He left behind a wife. He 
was 53. Left behind two sons. It was a real tragedy.
    So can you talk about the other human consequences of the 
flooding, in addition to the abandoned homes and the damage and 
the property damage? Can you go a little bit beyond that?
    Mr. Wolf. Thank you, Senator Barrasso. Yes, that was a 
tragic time that happened with his passing. A couple of folks 
in our courthouse were family, related to him, and we extend 
our condolences, too.
    When we look at what happened out there on the ground, when 
that flood inundated the homes and got close to the local 
businesses and displaced over 100 homes, as you had mentioned, 
those families were away from their homes for almost, I think, 
four to five nights, and when you look at the toll there, they 
don't know what they are going to come back to.
    Law enforcement did a very good job between the Worland 
Police Department and the Washington County Sheriff's 
Department trying to get families in and out of their homes if 
the ability was there for them to go in and at least get some 
belongings to get by. I think many of them thought it was just 
maybe an overnight deal, but upriver of this ice jam that had 
already flooded we had several other jams that had not come 
down yet, and with the normal flood stage there right at that 
point where the bridges are in Worland runs at 10.5 feet. We 
hit a high of 15 feet, and with other ice jams coming down, we 
didn't want to take the chance of letting them in there and 
cause injury or loss of life just from people being there. 
Those big chunks of ice are just dangerous to be around even if 
the water recedes.
    Senator Barrasso. You know, the pictures that you showed 
showing the growth of the island in the middle of the Big Horn 
River are striking. I think people looked at that and said, 
wow. The testimony states removal of the island could be a 
simple and effective solution for ice jam flooding in the city 
of Worland. As you point out, if the Big Horn River selected, 
as a pilot project to demonstrate innovative solutions for ice 
jams, I think we could solve this problem. In fact, it may be 
the only way, given the cost and the bureaucratic red tape and 
the permits that would be required.
    So, given that, do you believe that the Corps should have 
the good sense to step in to address situations like this, 
where the safety impact on the lives and the property are so 
great that, if a town can't afford to proceed on its own, that 
they should step in?
    Mr. Wolf. I do think so, Mr. Chairman, that they should 
step in. I do look at it, though, at a State and local level 
there, that we need to have some skin in the game and work with 
the Corps in this project. There is firsthand knowledge that we 
have that we have seen over the years that might be able to add 
to some solutions to the problem that they may not see, not 
being there on a regular basis. One of the things that we have 
looked at short-term is removal of that island that is out 
there, sandbar that has built up over time, and reinforce the 
riverbank, and then also, along with that, short-term solutions 
would be to put in place backflow prevention that goes back 
into the city on the storm drains, because even though some of 
the areas didn't get hit by the water overtopping banks, the 
water flow backed up the storm drains and flooded around 
buildings in some of the local areas. So that is one thing.
    In the long-term, we would like to get some berms in place 
to tie in around the north side of Worland.
    So I think we can work together, and I talked with the 
General earlier today and made some progress, I believe.
    Senator Barrasso. That would be great.
    General Semonite, can you comment on that? Do you have the 
ability to help towns like Worland to remove that simple island 
that causes so much damage each year? Or do you believe you 
don't have the statutory flexibility?
    General Semonite. Sir, thanks for the question. Senator, I 
think, first of all, I want to thank you for what you did to be 
able to get that pilot organized, the tender for night stem 
actions were in work in the next 5 years. We have a lot of 
expertise in cold regions. I am from a small town in Vermont. 
The Connecticut River has ice jams all the time. I have seen 
flooding in my own town, so I certainly know the complexity 
that is out there.
    I don't think we have a challenge with authorities, and it 
goes back to what you said earlier, I think, sir, when it comes 
to the 205 challenges, we want to be able to continue to reach 
out to do whatever we need to do for this Nation, whatever the 
Nation needs the Corps with expertise. Sir, the only reason 
that we should not be able to do something is because of the 
lack of funding. I mean, it should be the fact that we just 
can't afford it, the Nation can't afford, and this is where the 
best thing we could do is understand the requirement, come 
forward to be able to articulate that in Congress, where in 
fact we think there could be some use of that, and then if in 
fact the Administration and the Congress feels that we should 
step up, then that is obviously a budgetary decision. But I 
don't think that our hands are tied, necessarily, right now 
from an authority perspective, Senator.
    Senator Barrasso. And in terms of authority, I want to 
switch to something in the opening statement. I included that 
language in the Water Resources Development Act the Committee 
enacted last Congress, creating an Army Corps Pilot Program to 
develop innovative cost-saving technology to address the threat 
like this. In developing this technology, the programs would 
involve consultation, of course, with the co-regions research, 
engineering laboratory of the Corps. You talked about your 
upbringing and your familiarity, so will you commit, then, to 
work to implement this program in an expeditious manner to 
develop the required technologies to help alleviate these sorts 
of threats?
    General Semonite. Sir, the language in WRDA was very, very 
clear exactly what the scope of that program was. We already 
have that under gear to figure out how would we go ahead and do 
it. I think the only challenge would be is if at some point we 
don't have the funding to be able to execute the follow-on of 
some of those technologies. But I think it goes back to not 
only what the Corps can do; how can we continue to learn not 
only what other areas in America do, but this happens in other 
places in the world. We have to get some innovation to figure 
out how can we somehow use technology to be able to mitigate 
some of this risk.
    Senator Barrasso. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. Thank you very 
much for holding this hearing.
    As to the general concerns we have on dam maintenance, in 
Maryland we have 346 dams. I was surprised to learn that 
number. Two are under the jurisdiction of the Army Corps, and 
we thank you very much for the attention that has been paid to 
the two dams in Maryland that are under the Army Corps' 
supervision, the Jennings Randolph Lake, which affects Maryland 
and West Virginia, and in Cumberland, Maryland and Ridgeley, 
West Virginia.
    We also have a lot of other dams in our State that are 
highly regulated along the Susquehanna. The Conowingo Dam is 
one of the major sources of electricity in the east coast of 
the United States.
    But I want to go to the attention of the lesser known dams 
that we have in our State that are no longer performing the 
function for which they were constructed originally. We have 
the Bloede Dam on the Patapsco in Patapsco State Park that I 
was told was the first hydroelectric dam in the Country. That 
might be right, may be wrong, but it is an old dam that no 
longer serves its function and has really no purpose. But 
because of the way dams are maintained and financed and owned, 
there is no reserve for the removal of that dam.
    So that dam now is still there. It is a public safety 
hazard; we have had several drownings because it is on a State 
Park and individuals like to swim, and they swim near the dam 
and the currents there have caused people to lose their life. 
It also adversely affects our environment and the water flow; 
it affects farming operations in an adverse way. So I guess my 
question is there any way that we can figure out how we can, 
either moving forward, recognize that there is a life cycle for 
dams and that there is a need to remove dams that no longer are 
useful for their intended purpose? If you have suggestions on 
that, I would appreciate it.
    Lieutenant General, it looks like you have a thought.
    General Semonite. Sir, just maybe an observation on how we 
are doing it, Senator. Fifteen of the worst dams, the Federal 
dams, equate to probably $12 billion of repair. So the question 
is do we use taxpayers' money to fix all of those dams or have 
some of those actually outlived their point?
    So of the 15, 5 of them right now we are working with 
Congress to divest those 5. Three of them are already basically 
approved, and they are in Kentucky. They will come back out. 
There is another one right now that Olmstead is actually 
replacing, so this is actually on one of the rivers. I think 
you have a great point. There are times that we have to take a 
good look at and say is it really worth the return on 
investment to fix a dam or, for all the reasons you stated, 
especially when it comes to environmental, life safety, maybe 
it is time to take some of those dams out. So this is where I 
don't know the particular dam you are talking about; it is not 
a Federal dam. But certainly on our side we are trying to do 
the same thing, because the worst thing we can do is use very, 
very limited taxpayers' dollars to fix a dam that doesn't 
actually serve the intended purpose.
    Senator Cardin. Is there any experiences in the State on 
how you can decommission them?
    Mr. Larson. Thanks, Senator. I ran the Dam Safety Program 
in the State of Wisconsin. We had the authority to tell an 
owner either you fix it up or take it out. There may be 
instances, and this may be the case you are talking about, 
where we could not find an owner. In that case, we ask our 
State legislature to set up a fund to remove the dams. I think 
the States need to step up and do that. They are not Federal 
dams. These are non-Federal dams. And we did, we had a fund 
where we removed those dams that were no longer serving a 
purpose.
    Mr. Laird. And, Senator, we have removed just a high 
profile one in Monterey County. We have an agreement with 
Interior and the State of Oregon to remove four dams on the 
Klamath River. There is one in Ventura County that has silted 
up to the point that, by 2020, it will have a zero percent 
capacity and we will have what was once a 7,000-acre foot dam 
completely with silt ponded.
    And you nailed the problem. We raised the money from 
private donors and different public funds to deal with these 
dam removals because they were safety, it was fish, it was 
outlived the usefulness. And some of the ratepayers had to 
contribute, but in some of these cases they are on such a small 
base and the cost for removing the dam is so big that we have 
to leverage some other money.
    Senator Cardin. And we have no responsible party, I 
understand, that would pay to remove this dam. Therefore, we 
have to look for either a public source or some way in which 
there is a broader base to pay for removal of the dam. Your 
experiences could be very helpful to other States, so one of 
the things I guess I would encourage is that this subject be 
best practices shared as to how you were able to do this, 
because in my State we have been unable to take care of this 
circumstance.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Cardin.
    Senator Gillibrand.
    Senator Gillibrand.
    [Remarks made off microphone.]--New York State because we 
have quite a lot of dams. New York is particularly vulnerable 
because, according to the American Society of Civil Engineers, 
we are actually eighth in the Nation when it comes to high 
hazard potential dams. The average age of our dams are nearly 
70 years old.
    New York is also vulnerable to major storms and flooding 
associated with storm surges along our coast. Hurricane Irene 
and Tropical Storm Lee resulted in major flooding across New 
York State; massive damage to homes and businesses and lives. 
During Hurricane Irene and Tropical Storm Lee, New York failure 
of three low hazard and one intermediate hazard dams.
    We are very fortunate that prior to those storms important 
repairs were made in some instances, one particularly with the 
Gilboa Dam in Schoharie County, absent which we may have seen 
far more devastation in the Mohawk Valley and the city of 
Schenectady.
    Now, while New York State has a strong and longstanding dam 
safety program in place, we do not know where or when the next 
storm will occur, and whether it will be more intense than the 
last. So I think we really can't have a serious conversation 
about the safety of dams, levees, and other flood 
infrastructure without also addressing the impacts of climate 
change and extreme weather.
    Sea level rise and storm surge threatens infrastructure all 
across our coast. Increased amount of precipitation due to 
hurricanes, nor'easters, or other extreme weather events 
threatens our dams and levees as well.
    So, first, does the Army Corps provide any guidance to 
States to help them take the potential impacts of global 
climate change into account when carrying out their dam safety 
programs?
    General Semonite. Senator, thanks for the question. Yes, we 
certainly do provide a lot of capability. We have a lot of 
regional expertise. I said earlier we have 5,000 dam safety 
experts in the Corps. So even in the New York district you have 
several districts that work in the State of New York. All of 
those people are there able to provide that capability.
    We have also found that we have to be able to localize some 
of the real, real high end experts in a regional center, so we 
have built some regional centers. Mr. Helpin, sitting right 
behind me, he runs our national dam safety center, so not only 
are we able to come and help in a State capacity, but whatever 
we can do on any of our technical competence or be able to show 
lessons learned, we are certainly willing to do that. We are 
Mosul, Iraq, fixing that dam in Iraq right now because we are 
that level.
    So the challenge is going to be what is the level of 
support that we can give and how do we work that through on a 
reimbursable basis, because that is how the Corps works, but we 
are more than willing to partner if there are any specific 
issues you have in New York that I can help with.
    Senator Gillibrand. Well, what steps do you actually take 
to focus on resiliency? What can you take to make sure a dam is 
more resilient to handle extreme weather?
    General Semonite. So I think there is the physical piece, 
first of all. Some of the things that we have learned on our 
dams, on our structures: how do we go back in and worry about 
vegetation; how do we worry about making sure that the right 
inspections are done; the technical competency. I think the 
softer side is another big area, though. What are we doing and 
how do you mitigate that? Things like in our Federal dams, 
ma'am, we have these water control manuals, so we know how much 
water do we want to keep in the dam; where do we see the storm 
coming; how do we bring that back down. Obviously, that is a 
balance with drought.
    So the more that we can do this through technical 
affiliations or relationships and we can give some advice, I 
think that is one of the things that we can certainly offer; 
not just necessarily a structural fix, but how do we continue 
to work this through a risk-informed decisionmaking process to 
be able to make sure the whole entity is engaged.
    Senator Gillibrand. And when you are assessing if something 
is a high hazard dam or not, are future climate change impacts 
taken into consideration in making that judgment? I will just 
give you an example. In New York we have 7,000 dams, and 403 of 
them are classified as high hazard dam structures. Arguably, 
would more be classified as high hazard if you were also taking 
into account future climate change impacts?
    General Semonite. Senator, we look at climate change, sea 
level rise with every single thing we do. When we are going to 
build a new structure, we obviously put that into the design.
    I think the other thing that is really most important is 
not so much the fact of where the water is going to be, but how 
that water comes. Some of the other testimoneys today talked 
about flashes. In California right now we are very concerned 
about this pineapple express type scenario where you could have 
a lot of microbursts happen all at once. So it is not just the 
fact of where the water is, but how is that water going to 
come. And if it is going to come so fast that the system can't 
pass that water in a manner, then that is when we really have 
the challenges out there.
    Senator Gillibrand. And so you are you analyzing those sets 
of facts when judging which dams are critical?
    General Semonite. Yes, Senator, exactly right.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Well, thank you very much.
    Everyone has had one round of questions. I didn't have any 
other.
    Senator Harris, anything else?
    Well, I want to thank all of our guests for being here. I 
think this was very, very helpful for all of us. Some of you 
traveled long distances. I appreciate all of the witnesses for 
being here.
    At this time, I ask unanimous consent to place into the 
record additional testimony we received from the Association of 
State Dam Safety Officials and the Upper Mississippi, Illinois, 
and Missouri River Association and the Flood Plain Alliance for 
Insurance Reform. So, if there is no objection, those will be 
included in the record.
    [The referenced information follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Senator Barrasso. I do also want to note that this record 
will stay open for the next 2 weeks, and there may be other 
members of the Committee, because of the votes, who had to 
leave who may submit written questions, and we would hope that 
you could get back to us quickly with those.
    But, otherwise, thank you to each and every one of you for 
being here. I am very grateful for your time.
    This hearing is adjourned.
    [Whereupon, at 12:18 p.m. the committee was adjourned.]
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
     
                                 [all]
</pre></body></html>
